               OFFICE OF
               INSPECTOR
               GENERAL
               UNITED STATES POSTAL SERVICE




                Advertising Program

                       Audit Report




                                              January 4, 2013

Report Number MS-AR-13-002
                                                                      January 4, 2013

                                                               Advertising Program

                                                      Report Number MS-AR-13-002




BACKGROUND:                                  contractor staff roles and responsibilities
The United States Postal Service spent       and the misuse of position, are
$147 million on advertising in fiscal year   concerning because of the structure and
2011. Our objective was to evaluate the      magnitude of the contractors’ wage
oversight of this advertising program.       rates and total labor costs, which were
                                             $11.4 million in fiscal year 2011.
WHAT THE OFFICE OF INSPECTOR
GENERAL FOUND:                               Senior management expressed concern
The Postal Service was not adequately        over these contracts during our audit
monitoring its two largest advertising       and allowed the major advertising
contracts, which threatened the              contract to expire. Management has
effectiveness and integrity of its           taken significant steps to restructure
advertising program. Specifically, the       advertising contract processes for
Postal Service:                              consistency with current industry
                                             practices and maximize the
   Did not clearly define or understand     effectiveness of its advertising
    the roles and responsibilities of the    investments.
    primary team members for its major
    advertising contractors, who were        Overall we identified nearly $7 million in
    paid $10 million in fiscal year 2011.    unsupported questioned costs as a
   Paid $631,712 in questionable            result of incorrectly certified and
    bonuses to these two contractors in      questionable contractor support staff
    fiscal years 2011 and 2012.              labor costs and bonus payments.
   Did not sufficiently track or allocate
    certain advertising costs.               WHAT THE OFFICE OF INSPECTOR
   Did not comply with internal controls    GENERAL RECOMMENDED:
    for certifying and retaining             We recommended the Postal Service
    advertising invoices.                    establish a clearly defined process to
                                             perform contractor evaluations; and
We also identified misuse of position by     appropriately review, certify, and
                                             maintain invoices. We also
                                             recommended the Postal Service track
                                             contractor labor costs and appropriately
which we have referred to our Office of      allocate advertising costs.
Investigations for further review.
                                             Link to review entire report.
These deficiencies, particularly related
to the lack of clear understanding of
January 4, 2013

MEMORANDUM FOR:             NAGISA M. MANABE
                            CHIEF MARKETING/SALES OFFICER AND EXECUTIVE
                            VICE PRESIDENT

                            SUSAN M. BROWNELL
                            VICE PRESIDENT, SUPPLY MANAGEMENT



FROM:                       Darrell E. Benjamin, Jr.
                            Deputy Assistant Inspector General
                             for Revenue and Performance

SUBJECT:                    Audit Report – Advertising Program
                            (Report Number MS-AR-13-002)

This report presents the results of our audit of the U.S. Postal Service’s Advertising
Program (Project Number 12RG015MS000).

We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact Janet M. Sorensen, director,
Marketing and Service, or me at 703-248-2100.

Attachments

cc: Susan A. Witt
    Corporate Audit and Response Management
Advertising Program                                                                                                MS-AR-13-002




                                               TABLE OF CONTENTS


Introduction ..................................................................................................................... 1

Conclusion ...................................................................................................................... 2

Oversight of Major Advertising Contracts ........................................................................ 4

   Core and Non-Core Team Roles and Responsibilities ................................................ 4

   Tracking and Allocating Costs ..................................................................................... 7

   Invoice Retention and Certification .............................................................................. 9

   Questionable Contractor Bonus Payments ................................................................ 10

   Misuse of Position and Improper Release of Information .......................................... 10

Advertising Program Changes ...................................................................................... 10

Recommendations ........................................................................................................ 11

Management’s Comments ............................................................................................ 11

Evaluation of Management’s Comments ....................................................................... 12

Appendix A: Additional Information ............................................................................... 13

   Background ............................................................................................................... 13

   Objective, Scope, and Methodology .......................................................................... 14

   Prior Audit Coverage ................................................................................................. 15

Appendix B: Monetary and Other Impacts..................................................................... 16

Appendix C: Management’s Comments ........................................................................ 17
Advertising Program                                                                                    MS-AR-13-002




Introduction

This report presents the results of our audit of the U.S. Postal Service’s Advertising
Program (Project Number 12RG015MS000). Our objective was to evaluate the
effectiveness of the Postal Service's oversight of its advertising program. This
self-initiated audit addresses strategic and financial risk. See Appendix A for additional
information about this audit.

The Postal Service uses a variety of means — including direct mail, print and digital
media, mobile technologies, television, and radio — to advertise, market, promote, and
brand its organization, products, and services. The Postal Service spent about
$147 million on advertising in fiscal year (FY) 2011, with over $138 million attributed to
specific products (see Table 1). The majority of this expense (about $108 million) was
for Priority Mail, which included the “if it fits, it ships” ® Flat Rate Box campaign.
According to the Postal Service, this has been one of its most successful campaigns to
date and has won awards for its effectiveness.

                      Table 1: Advertising Expense by Product, FY 2011

                                Product                           Expense (in millions)
                    Priority Mail
                    Direct Mail
                    Post Office Boxes                                             3.1
                    First-Class Mail                                              3.1
                    Corporate Backend Support 1                                   2.1
                    Retail Access
                    Automated Postal Centers                                      1.9
                    Stamps                                                        1.8
                    Package Services
                    USPS.com                                                      0.9
                    Other2
                    Total                                                 $ 138.4
                   Source: Postal Service FY 2011 Cost, Revenue, and Analysis
                   report.

The Postal Service’s advertising group, which consists of 13 staff members, is
responsible for overseeing advertising contracts, as the Postal Service contracts out
nearly all of its advertising work. The Postal Service paid its primary advertising




1
 Includes elements such as website maintenance, database support, inventory management, metrics, etcetera.
2
 Includes other advertising products and categories such as International Mail, Express Mail, Global Priority Mail,
Research, Core Team Travel, and Brand.
                                                         1
Advertising Program                                                                                       MS-AR-13-002




contractor $126 million 3 in FY 2011, making the firm its sixth largest supplier overall.
The Postal Service began contracting with this firm in August 2002 and extended their
contract on a non-competitive basis through September 2012. This contractor was
responsible for such activities as purchasing media, developing creative content and
providing strategic direction, publishing Deliver magazine, 4 and producing commercials.
This contractor had two types of staff that worked on the Postal Service account: (1) a
   -member core team responsible for creative content and strategic direction and paid
for on a firm-fixed price 5 basis and (2) various other specialists and staff (non-core
team) responsible for 'day-to-day' administrative and technical work. The work for the
non-core team staff was billed to the Postal Service monthly.

The Postal Service’s second major advertising contract is primarily for advertisements
at retail post offices (such as signage, posters, and displays). This contract started in
2009 and includes a core team of       staff members. The Postal Service spent about
$10 million in FY 2011 on this contract. The Postal Service also has separate
advertising contracts for marketing database management, campaign analytics and
data processing, and other smaller campaigns. The costs for the other advertising
contractors was about $11 million in FY 2011.

The Postal Service has designated ‘Brand Advancement’ as one of its Delivering
Results, Innovation, Value, and Efficiency initiatives. As part of this initiative, the Postal
Service seeks to (1) advance the value of the Postal Service’s brand essence and
increase the value of the Postal Service’s brand among internal and external
stakeholders, (2) align and motivate the organization around the core brand essence
principle, and (3) increase coordination with other key organizations to promote the use
of the Postal Service’s brand essence. The Postal Service spent about $169,000 on
brand initiatives in FY 2011.

Conclusion

The Postal Service was not adequately monitoring its two largest advertising contracts,
which threatened the effectiveness and integrity of its advertising program. Specifically,
the Postal Service:

   Did not have a clear understanding of the roles and responsibilities of the core team
    members for its major advertising contractors, who it paid $10 million in FY 2011
    because they were not clearly defined in the contract. Without this information, the

3
  According to Postal Service advertising officials, the vast majority of the Postal Service’s contractor costs
(     million in FY 2011) are 'pass-throughs,' whereby the contractor procures certain media or other services on
behalf of the Postal Service and passes payment directly through to the service provider (such as to the television
studio that aired the Postal Service’s commercial).
4
  Deliver magazine is published six times a year by the Postal Service’s main advertising contractor. The Postal
Service spent over $3 million on the Deliver magazine program in FY 2011. This magazine is free to all subscribers
and provides marketers with research, news, and commentary impacting the Direct Mail industry.
5
  The price is normally not subject to adjustment and is typically used when there is minimal risk or risk can be
predicted with a high degree of certainty. Postal Service policy states that firm-fixed price contracts pay suppliers a
fixed amount over a 12-month period. The amount of compensation does not depend on revenue generated.

                                                            2
Advertising Program                                                             MS-AR-13-002



    Postal Service was unable to provide adequate oversight of what work should be
    completed by the core team and what should appropriately be accomplished by non-
    core team personnel. As such, we found $4 million in questionable payments to non-
    core team staff members in FYs 2010 and 2011.

   Paid $631,712 in questionable bonuses to these two contractors in FYs 2011 and
    2012, even though the process for evaluating contractor performance was unclear.

   Did not sufficiently track costs associated with non-core staff members or allocate
    core team travel costs to specific projects — issues that made it difficult to
    objectively evaluate the effectiveness of the contractor’s performance and the Postal
    Service’s overall advertising efforts.

   Did not comply with internal controls for certifying and retaining invoices from its
    advertising contractors. We found $2.3 million in invoices that had not been certified
    properly and determined there were $4 million in invoices missing from the
    contracting officer representative’s (CORs) files.

We also identified an instance of misuse of position

                            We also found that the contents of our informal draft report
were improperly released to officials outside of the Postal Service who were connected
to the major contractor.

These shortcomings associated with the Postal Service’s oversight of these contracts
are especially troubling since (a) the largest contract was originally awarded in August
2002 and was non-competitively extended from July 2006 to September 2012 and (b)
the second contract was awarded non-competitively in 2009. Furthermore, the structure
and magnitude of these contracts — particularly the wage rates, labor costs, and bonus
payments — should have been accompanied by a more stringent oversight structure
that protected the Postal Service’s investment.

Inadequate oversight and internal controls put the Postal Service’s advertising program
and spending at risk. The issues we have identified are significant enough to warrant
immediate action to prevent additional questionable expenditures. We met with the
Postal Service’s chief Marketing and Sales officer who agreed with the concerns we
raised. She initiated corrective actions by not extending the contract with its major
advertising contractor into FY 2013; significantly updating, restructuring, and resoliciting
various portions of the advertising contract to be make them consistent with current
industry practices and maximize the effectiveness of its advertising investments; and
changing leadership in the Advertising group. We are reporting $2.3 million in
improperly certified invoices, $4 million in non-core labor costs, and the performance
bonuses of $631,712 as questioned costs. See Appendix B for monetary impact.
Additionally, we are reporting $380.4 million for FY 2010-2012 total disbursements
made on the two largest contracts as other impact, disbursements at risk.



                                             3
Advertising Program                                                                                      MS-AR-13-002




Oversight of Major Advertising Contracts

The Postal Service was not adequately overseeing and monitoring its two major
advertising contracts, which threatened the effectiveness and integrity of its advertising
program. The shortcomings associated with the Postal Service’s oversight of these
contracts were especially troubling considering:

   The Postal Service originally awarded its major advertising contract in August 2002,
    extended it non-competitively since July 2006, and anticipates another
    non-competitive extension for FY 2013. The Postal Service non-competitively
    extended this contract on the grounds of ‘compelling business interests,’ 6 which the
    Postal Service defines as ‘a business interest so compelling that purchasing
    non-competitively outweighs the benefits of competition, as well as its overall
    satisfaction of the contractor’s performance. The Postal Service allowed this contract
    to expire at the end of FY 2012.

   The Postal Service’s second largest advertising contract was awarded
    non-competitively in 2009. This followed a 7-year period in which this firm was a
    subcontractor under the larger Postal Service advertising contract. The Postal
    Service decided to enter into a contract with this firm to reduce overall advertising
    costs and have direct access to the firm. The Postal Service recently
    non-competitively extended this contract into FY 2013.

While the non-competitive justification may have been sufficient to comply with Postal
Service requirements, we believe the Postal Service could benefit from re-competing
and restructuring these contracts to take advantage of available competition in the
advertising marketplace and better align these contracts with current advertising
contracting practices.

Core and Non-Core Team Roles and Responsibilities

Postal Service contractual payments for contractor core team and non-core team staff
members are questionable due to their lack of oversight and magnitude. The Postal
Service did not have a clear understanding of the core team’s roles and responsibilities
because they were not clearly defined in the contract. Furthermore, while certain roles
and responsibilities for core team members were outlined in an amended technical
proposal, contracting and program officials did not have this document readily available
and were unfamiliar with its contents. Without this information, it is difficult for the Postal
Service to understand the following:

   Performance of the core team throughout the year. Through discussions with
    Postal Service advertising and contracting staff and reviews of the Postal Service’s

6
  Compelling business interest situations can include, but are not limited to, the urgency of the requirement, supplier
innovation that furthers business objectives, or undue costs or delays that would result from a contract reward to a
new supplier.

                                                           4
Advertising Program                                                            MS-AR-13-002



    contracting files, there was limited documentation indicating the roles and
    responsibilities of core team members. Having information that lists key personnel
    roles and describes their responsibilities readily available to contracting and program
    staff is a common — usually required — practice in the federal government,
    particularly considering the scope and magnitude of the core team and the related
    costs. Documents that described these roles and responsibilities were not included
    in the contracting files or held by any Postal Service advertising staff COR or the
    contracting officer (CO). Although Supply Management officials subsequently
    provided an amended technical proposal from May 2002 that included some
    information on the general roles of the core team, this document did not provide
    comprehensive detail about the roles and responsibilities of specific core team
    members (                                      ). Without clear, readily available
    information that established what is expected of specific core team members
    throughout the year, the Postal Service was unable to effectively assess the team’s
    performance throughout the year.

   Why non-core team staff members perform some work. Postal Service contracting
    staff noted that the contractor could delegate core team work to junior-level staff.
    Such an arrangement would put these Postal Service payments at risk because the
    Postal Service would be paying for the same service twice, once as part of the core
    team’s fees and again as part of invoiced non-core work. For example, we found
    invoices and documents that illustrated potential issues associated with having work
    performed by non-core staff that could have been completed by the core staff.
    Specifically, we found invoices that contained written narratives from Postal Service
    officials that questioned the billing of this work — such as “This work….should not be
    charged to the USPS [as a non-core expense], the core team should do the work.”
    However, in each of these examples, no changes were made to the invoice and
    Postal Service advertising managers approved the invoiced amount for payment.
    When we asked the approving COR about these comments, the official stated that
    when questions regarding payment of invoices arose, there were discussions among
    Postal Service advertising staff and possibly the contractor to resolve the issues.
    The official also stated that in the examples above, these discussions lead to
    approval of the invoices for payment.

The structure and magnitude of these core team costs should have been accompanied
by a more stringent oversight structure to protect the Postal Service’s investment. The
Postal Service agreed to pay over $10 million for core team staff costs in FY 2011 as
part of these contracts. There were       core team staff members for the largest
advertising contract and      for the second largest advertising contract. These staff
members were paid on a firm-fixed price agreement regarding staffing hours and hourly
labor rates. This firm-fixed price structure, however, only applied to the work the core
team performed. The core team could delegate work to non-core staff or
subcontractors, both of whom could potentially invoice their costs back to the
Postal Service.




                                             5
Advertising Program                                                                                     MS-AR-13-002



The overall construct of this labor payment structure has not changed significantly since
the original contract was signed in 2002. The CO who oversaw the solicitation and
award of the original contract stated that this payment structure was typical of
advertising services at that time. Our research indicates that this labor payment
structure should have been re-evaluated, particularly considering the oversight
deficiencies we uncovered. Specifically, General Services Administration (GSA)
contracting experts on advertising services contracts stated that they are not aware of
any federal advertising service contracts that use this structure and that without diligent
oversight, this contracting structure leaves the Postal Service vulnerable to significant
labor costs. Furthermore, the fact that various groups could perform work under these
contracts underscores the importance of conducting quality oversight in this area and
ensuring the contract requirements were clearly defined — the Postal Service should
have had a clear understanding of who should perform what work. The Postal Service’s
inability to clearly understand the core team’s specific roles and responsibilities,
combined with other issues we found related to whether a core team member or
non-core team member should have completed a particular task, resulted in the Postal
Service being vulnerable to potentially duplicative labor costs.

In addition, we found the Postal Service agreed to pay hourly labor rates to its largest
advertising contractor that exceeded the rates this contractor would charge other federal
agencies as set forth by the GSA’s Federal Supply Schedule Price List. 7 For example,
the maximum wage rate in the GSA schedule for this contractor was $302.27 per hour
— the Postal Service paid wage rates that exceed this amount for 21 percent of
contractor staff, with two contractors earning         per hour. These fees also
covered, on average, between 22 and 32 hours of work each week on Postal Service
campaigns (see Table 2).




7
  Although the Postal Service is not subject to the wage rates defined in GSA's Advertising and Integrated Marketing
Solutions, Schedule 541, we consider these rates to be an appropriate benchmark to evaluate the reasonableness of
these contractor costs. The wage rates for the Postal Service contract and included in the GSA schedule are both
fully loaded wage rates that includes labor, overhead, and profit. Furthermore, although Postal Service officials stated
that the advertising services they solicited as part of their advertising contracts were greater in magnitude and
complexity than those found under the GSA schedule, we consider these wage rate comparisons appropriate
because the contractor’s employee titles (such as creative director) included in both the GSA schedule and Postal
Service contract were identical.

                                                           6
 Advertising Program                                                                       MS-AR-13-002




          Table 2: Select Postal Service Advertising Contractor Fees for FY 2011

                     Title                                Hours              Hourly     Total FY 2011
                                                       (average per        Labor Rate        Fee
                                                          week)
 Creative Director                                          32
 Account Director                                           32
 Vice President (VP) Group                                  32
 Account Director
 Business Planner                                             29
 Creative Director – Direct                                   32
 Creative Director – Direct                                   32
 Account Director                                             22
 VP Strategic Planning                                        25
 Associate Creative Director –                                29
 Retail
 Account Director                                             32
 Account Director                                             32
 Account Director                                             32
 VP Account Director – Retail                                 32
 Media Director                                               32
 VP Account Planner                                           32
 Account Director                                             32
 Account Director – Retail                                    32
Source: Postal Service contracts with its two largest advertising firms.

 While we recognize the Postal Service did not have to follow the GSA schedule and had
 the authority to negotiate its own contractor rates, the magnitude of these rates —
 particularly considering the Postal Service’s recent financial challenges — necessitated
 a corresponding amount of oversight to protect the Postal Service’s financial interests.
 The Postal Service’s limited understanding of the core team’s roles and responsibilities
 did not provide an appropriate amount of oversight commensurate with the magnitude
 of these costs. As a result of the lack of information in the contract regarding the core
 team’s roles and responsibilities, we are designating the $4 million in non-core team
 labor costs in FY 2010 and 2011 as questionable. Without this information, the
 Postal Service was vulnerable to potentially duplicative labor costs because it did not
 have a clear understanding of which staff, core team or non-core team members should
 be performing what work.

 Tracking and Allocating Costs

 The Postal Service did not appropriately track the contractor’s non-core team staff costs
 or allocate contractor travel costs to specific projects — issues that made it difficult to
 objectively evaluate the effectiveness of the contractor’s performance and the
 Postal Service’s overall advertising efforts.

                                                             7
Advertising Program                                                             MS-AR-13-002




For example:

   Insufficient tracking of non-core team staff costs: During our audit, the Postal Service
    was unable to provide current numbers when requested. The most recent figure
    provided during our audit was $8.5 million in FY 2009. In reviewing labor-related
    invoices and meeting with Postal Service officials and Postal Service contracted
    data staff, we found that there are two types of billing methods for non-core labor:

    o An hourly labor rate, where a non-core team member would work on a project
      and bill their hours directly back to the Postal Service; and

    o A flat fee or ‘rate card,’ where the Postal Service and the contractor agreed on
      the total cost for a particular task (such as making a poster). This total cost would
      include a non-core team labor component, as well as other materials.
      Postal Service officials stated the aforementioned $8.5 million was provided to
      them by their main advertising contractor and that they did not have readily
      available access to either of the non-core labor amounts based on the following:

           Hourly labor rates — Postal Service officials stated there was no readily
            available reporting mechanism for the hourly labor rate for non-core team
            costs for the specific contractors and that the reports available to them only
            contained hourly non-core labor costs for all advertising contractors. We
            subsequently worked with Postal Service staff and contractors to estimate
            hourly non-core team labor expenses of $2.8 million in FY 2010 and
            $1.2 million in FY 2011.

           Flat fee or ‘rate card’ — Postal Service officials stated that, although they
            know the labor component comprised more than 50 percent of all flat-fee
            work, they were unable to determine the exact non-core team labor
            component of flat-fee work ($11.5 million in FY 2010 and $11 million in FY
            2011). During our audit, however, we found several invoices for work
            completed on a flat-fee basis that specified the exact amount of the non-core
            team labor component.

The Postal Service’s inability to sufficiently track and monitor non-core team labor costs
incurred by each of the respective contractors hindered its ability to provide effective
contractor oversight and objectively evaluate their performance. Although the
Postal Service implemented a new tracking system in 2012, it still does not have the
capability of sufficiently tracking these costs. For example:

   Misallocated travel expenses: The Postal Service misallocated $17,800 in non-core
    team travel expenses to core team travel between October 2010 and May 2012.
    Core team travel expenses are not allocated to specific advertising products (see the
    table in Appendix A), while travel for non-core team members is allocated to specific
    advertising projects.


                                             8
Advertising Program                                                                                    MS-AR-13-002




   Misallocated contractor executive costs: Between October 2009 and
    September 2011 the Postal Service allocated $37,790 in costs incurred by an
    executive official for the largest advertising contractor as ‘Miscellaneous,’ when
    some of the costs should have been tied to specific products. For example, work
    specifically performed on the Every Door Direct Mail 8 advertising campaign was
    allocated to the Miscellaneous account instead of the Direct Mail account.

Invoice Retention and Certification

The Postal Service did not comply with internal controls for certifying and retaining
invoices from its advertising contractors. Select Advertising staff who are CORs9 are
required as part of their COR certification to, among other things, verify invoices and,
upon receipt, promptly certify them for payment and forward a copy of the certified
invoice to the CO for retention in the contract file. These officials "may not re-delegate
any of the contractual authority listed above, except for clerical tasks associated with
that authority." During our review of the Postal Service’s advertising invoices we found:

   Sixty-one invoices totaling $2.3 million in Postal Service payments made between
    October 2010 and March 2012 that were either not certified or were certified by
    someone without appropriate designation. Certifying invoices for payment is a key
    responsibility of contractor-certified Advertising staff and, as such, should not be re-
    delegated.

   Eleven invoices totaling $4 million in Postal Service payments missing from COR
    files in our review of 348 payments of over $100,000 made between October 2010
    and March 2012. We subsequently located the invoices in the Postal Service’s
    Accounts Payable records in San Mateo, CA.

   Copies of certified invoices were not retained in the contract file.

Postal Service officials explained that a prior budget specialist lost some invoices and
also stated that improper invoice certification occurred when no CORs were available.
These officials stated that they now have a sufficient number of CORs available to
prevent these issues in the future. Postal Service officials recently provided us with
updated information on some of the aforementioned invoices. Specifically, this updated
documentation indicated that 12 invoices totaling $846,535 were appropriately certified.

Inadequate internal controls put the Postal Service at risk of paying for services that
were not rendered or did not meet contract requirements. Since we cannot ascertain
whether services the Postal Service paid for were adequately rendered when invoices
were not properly certified, we are reporting $2.3 million in invoices that were incorrectly
certified as unsupported questioned costs. We did not include the $4 million in invoices

8
  Every Door Direct Mail is a program the Postal Service developed to enable businesses to send postcards or
advertisements to a target audience without purchasing a mailing list or print-specific addresses on a mailpiece.
9
  Advertising staff who are trained and designated as CORs.

                                                          9
Advertising Program                                                                                MS-AR-13-002



missing from the COR files in our monetary impact calculations because they were
subsequently retrieved from the Accounts Payable records in San Mateo. However,
non-retention of these invoices by COR staff was not consistent with Postal Service
policy. The Postal Service’s Advertising and Supply Management staff must enforce
internal controls for certifying and retaining invoices in order to avoid paying for services
that are not rendered or do not meet contract requirements.

Questionable Contractor Bonus Payments

The Postal Service made questionable bonus payments totaling $631,712 to two
contractors in FYs 2011 and 2012, basing these performance incentive payments on
quantitative and qualitative factors and specific metrics it agreed to with the contractors.
The Postal Service, however, did not have a clear, defined process for calculating the
qualitative factors that accounted for 80 percent of these contractor evaluations.
Therefore,                            adjusted some qualitative rankings to offset the
views of internal advertising clients         found unfairly critical and to incorporate the
views of other Postal Service executives who did not submit rankings. The lack of a
clear, defined process for determining the qualitative scores and the subsequent
adjustment of scores                               raise questions about the
appropriateness of these bonus payments.

Misuse of Position and Improper Release of Information

We discovered


                                                 impairs the Postal Service’s oversight and
objectivity of these contracts, causing a perception of bias. We also believe this violates
impartiality controls. 10 In addition, we discovered that the contents and findings of our
informal draft report were released to officials outside of the Postal Service connected to
the major contractor. The draft report sent to the Postal Service contained clear
language stating that “Distribution should be limited to those within the Postal Service
with a need to know.” We referred these issues to the Office of Investigations and,
therefore, are not making a recommendation at this time.

Advertising Program Changes

The Postal Service faces major challenges in its advertising and marketing program.
These include declining demands for key mail categories, frequent public stories about
its overall financial troubles, and competitors with greater advertising resources. 11 The
extent to which the Postal Service can promote effective oversight of its advertising
program and comply with its internal controls should help mitigate these challenges and
increase the effectiveness of its advertising efforts.

10
  5 CFR §2635.502.
11
  For example, FedEx recorded spending $375 million on advertising in 2011, which is about two-and-a-half times
what the Postal Service spent that year.

                                                       10
Advertising Program                                                               MS-AR-13-002




The chief Marketing and Sales officer informed us that she is in the process of
evaluating the Postal Service’s overall advertising program. Specifically, she agreed
with the concerns we raised about the Postal Service's main advertising contracts and
has already initiated corrective action. The Postal Service is separating the two largest
advertising contracts into multiple contracts. Specifically, it is focusing on competing the
media planning and strategy portion but is also planning to compete the creative
strategy and developments and media-specific portions. The chief Marketing and Sales
officer stated that restructuring these contracts would allow the Postal Service to take
advantage of available competition in the advertising marketplace, better align these
contracts with current advertising contracting practices, and maximize the effectiveness
of the Postal Service’s advertising investments. The Postal Service also ended the
contract with its major advertising contractor at the end of FY 2012 and has changed
the leadership in its Advertising group.

Recommendations

We recommend the chief Marketing and Sales officer and executive vice president:

1.   Establish a clearly defined process for performing contractor evaluations when
     determining incentive payments.

2.   Ensure that all invoices are properly reviewed, certified, and maintained.

3.   Ensure that a mechanism is in place for tracking non-core team labor costs.

4.   Develop a strategy for reasonably allocating costs to specific advertising
     campaigns.

We recommend the chief Marketing and Sales officer and executive vice president and
vice president, Supply Management:

5.   Determine a strategy to ensure that certified invoices are retained in accordance
     with Postal Service policy.

Management’s Comments

Management agreed with the findings, recommendations, and monetary impact.
Regarding recommendation 1, management stated that the new competitive advertising
contracts will not contain incentive fee payments. Management also stated that, through
renegotiations and modifications, the incentive payment option was removed from the
one remaining legacy contract. Management will provide support to the Office of
Inspector General (OIG) to close this recommendation.

Regarding recommendation 2, management stated that a new internal process for
properly reviewing, certifying, and maintaining invoices will be developed. New CORs


                                             11
Advertising Program                                                             MS-AR-13-002



will be instructed by Supply Management COs on these processes and currently are
taking the Contracting Officer’s Representative and Ethics training. Management also
stated they will perform periodic reviews to ensure compliance. This training, instruction,
and internal process development is scheduled to be implemented by the end of
February 2013.

Regarding recommendation 3, management determined that the current tracking
system does capture labor costs and they are developing a custom report to provide
visibility into these costs that is scheduled to be implemented by March 2013.

Regarding recommendation 4, management stated that they are assessing the current
tracking system to determine the associated costs and feasibility of allocating costs to
specific advertising campaigns. An action plan for implementing system changes is
scheduled to be implemented by March 2013.

Regarding recommendation 5, management stated that Supply Management COs will
be instructing new CORs on the policies and processes for retaining certified invoices.
They also stated that Marketing and Sales officials will be developing and
communicating an internal process for certifying invoices and performing periodic
reviews to ensure compliance. These actions are scheduled to be implemented by
February 2013.

Management also clarified two other items in the report, the first regarding the ability of
the core team to delegate work to non-core staff or subcontractors. The second
clarification concerns the use of the term 'bonus payments' as management stated that
it mischaracterized the nature of these payments.

See Appendix C for management’s comments, in their entirety.

Evaluation of Management’s Comments

The U.S. Postal Service OIG considers management’s comments responsive to the
recommendations in the report.

The OIG considers all recommendations significant, and therefore requires OIG
concurrence before closure. Based on management’s corrective actions, we have
closed recommendation 1. For recommendations 2 through 5, the OIG requests written
confirmation when corrective actions are completed. These recommendations should
not be closed in the Postal Service’s follow-up tracking system until the OIG provides
written confirmation that the recommendations can be closed.

Regarding the first area of clarification that management provided in their comments,
we recognize that the contract allowed for non-core staff and subcontractors to perform
certain project-specific work subject to Postal Service review. However, based on our
concerns about the quality of the Postal Service’s oversight in this area — particularly
its inability to clearly understand the core team’s specific roles and responsibilities — we


                                             12
Advertising Program                                                         MS-AR-13-002



continue to believe the Postal Service may have been vulnerable to potentially
duplicative labor costs in this area

Regarding management’s second clarification, we are choosing to retain the term bonus
payments because the initial 2012 contract extension with the Postal Service’s major
advertising contractor specifically refers to these as incentive 'bonus' payments.




                                           13
Advertising Program                                                                             MS-AR-13-002



                              Appendix A: Additional Information

Background

The Postal Service uses a variety of strategies and mediums (such as direct mail, print
and digital media, mobile technologies, Deliver magazine, television, and radio) to
advertise, market, promote, and brand its organization and product and service
offerings. The Postal Service spent about $147 million on advertising in FY 2011. The
most significant of these efforts has been the campaign for Priority Mail Flat Rate Box: 'if
it fits, it ships.' The Postal Service spent nearly $108 million on this specific product
campaign in FY 2011 (see Table 3). According to the Postal Service, this was one of its
most successful campaigns to date and it has won awards for its effectiveness.

                      Table 3: Advertising Expense by Product, FY 2011

                            Product                           Advertising Expense
             Priority Mail Flat Rate Box
             Direct Mail
             PO Boxes                                                               3,111,366
             First-Class Mail                                                       3,107,674
             Corporate Backend Support                                              2,058,736
             Retail Access
             Automated Postal Centers                                               1,914,490
             Stamps                                                                 1,768,839
             Package Services
             USPS.com                                                                895,264
             International Mail
             Passports                                                               567,775
             Express Mail
             Global Priority Mail
             Research
             Core Team Travel
             Package Pickup
             Global Express Guaranteed
             Global Express Mail
             Brand                                                                   168,639
             Greeting Cards
             ReadyPost
             Parcel Select
             Special Services                                                         86,140
             Premium Forwarding Service                                               45,252
             Retail Merchandise
             Public Notices                                                             2,400
              Total                                                              $138,363,334
            Source: Postal Service FY 2011 Cost, Revenue, and Analysis report.


The Postal Service’s advertising group, which consists of 13 staff members, is managed
by an Advertising manager who reports directly to the chief Marketing and Sales officer.

                                                    14
Advertising Program                                                             MS-AR-13-002



A significant portion of this group’s responsibility entails overseeing the Postal Service’s
advertising contracts, as the Postal Service contracts out for nearly all of its advertising
work. Key contracts include:

   Largest advertising contractor: This contract began August 1, 2002. Under the FY
    2012 structure of this contract, which was valued at $160 million, the Postal Service
    paid for a dedicated core team of over 30 staff who specialized in creative content
    and strategic direction and their support staff who helped with day-to-day
    responsibilities. The Postal Service repeatedly ‘non-competitively’ extended this
    contract due to what is referred to as ‘compelling business interests,’ as well as its
    overall satisfaction with the contractor’s performance. The Postal Service allowed
    this contract to expire at the end of FY 2012.

   Second advertising contractor: This contractor is primarily responsible for
    advertisements at retail Post Office locations. This contractor had originally been a
    subcontractor under the primary advertising contractor, but began contracting
    directly with the Postal Service in 2009 for a contract valued at $10 million. This
    contract was extended on a 'non-competitive' basis through FY 2012 (at a value of
    $12 million in FY 2012). The Postal Service recently non-competitively extended this
    contract into FY 2013.

The Postal Service also has other advertising contracts that support its information
technology, priority mail maintenance, work with stamps, a few smaller campaigns, and
Direct Marketing Association membership dues. The costs for these other advertising
contractors totaled just over $10.7 million in FY 2011.

Objective, Scope, and Methodology

Our objective was to evaluate the Postal Service’s oversight of its advertising program.
To accomplish our objective, we reviewed the Postal Service’s current and past
advertising efforts. We interviewed key officials regarding advertising and branding
efforts, their methods of calculating return on advertising investment, and their methods
for evaluating contractors. We reviewed the Postal Service’s contracts for work
performed for the Advertising group, metrics the Postal Service uses to evaluate
contractors, contractor-generated invoices, and Postal Service payments to contractors.
We researched additional marketing and brand promotion strategies the Postal Service
could employ and constraints to implementation it might face.

We conducted this performance audit from November 2011 through January 2013 in
accordance with generally accepted government auditing standards and included such
tests of internal controls as we considered necessary under the circumstances. Those
standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our
audit objective. We believe that the evidence obtained provides a reasonable basis for
our findings and conclusions based on our audit objective. We discussed our



                                             15
Advertising Program                                                              MS-AR-13-002



observations and conclusions with management on November 13, 2012, and included
their comments where appropriate.

We identified data systems used to record financial transactions for the advertising
group at the local and national levels and gained access to this data as necessary. We
analyzed and compared accounts payable data to physical invoice data. Additionally,
we assessed the usefulness of the data systems to determine whether they assisted the
Postal Service in managing and tracking financial transactions. We assessed the
reliability of financial data maintained in Accounts Payable Excellence by comparing
payments over $100,000 for FY 2011 and the first half of FY 2012 to their source
invoices. We discussed any disparities with management. We determined that the data
were sufficiently reliable for the purposes of this report.

Prior Audit Coverage

                                                           Final
                                                          Report
         Report Title            Report Number             Date        Monetary Impact
Advertising Cost Reporting       CRR-AR-10-004          8/18/2010             None
Report Results: The Postal Service did not accurately report advertising costs to the Postal
Regulatory Commission (PRC). Specifically, the Postal Service understated Priority Mail
advertising costs, which made the product appear to be more profitable. The Postal Service
lacked written guidance for collecting and reporting costs for their Annual Compliance
Report. In addition, during FY 2009, advertising managers changed procedures for allocating
advertising costs without notifying finance personnel of the change. The new procedures did
not follow the PRC’s established cost methodology. Management did not agree with all of the
assertions, methodologies, and conclusions in the finding; however, they stated they agree
and intend to comply with all of the recommendations.




                                             16
Advertising Program                                                                                  MS-AR-13-002



                            Appendix B: Monetary and Other Impacts

                                               Monetary Impact

           Recommendation                    Impact Category                               Amount
                 2                     Unsupported Questioned Costs12                      $7 million

We calculated unsupported questioned costs by adding the following:

    $2.3 million in incorrectly certified invoices between October 2010 and May 2012.
    $4 million in non-core team labor costs in FYs 2010 and 2011.
    $631,712 in performance bonus payments in FYs 2011 and 2012.


                                                 Other Impact

           Recommendation                       Impact Category                          Amount
                 2                           Disbursements at Risk 13                 $380.4 million 14

We calculated disbursements at risk by adding the following:

    $127.8 million for total FY 2010 disbursements.
    $136.3 million for total FY 2011 disbursements.
    $116.3 million for total FY 2012 disbursements.




12
   Unsupported questioned costs are a weaker claim and a subset of questioned costs that are claimed because of
failure to follow policy or required procedures, but do not necessarily connote any real damage to Postal Service.
13
   Disbursements at risk are a non-monetary impact claim that falls under other impacts. These are disbursements
made when proper Postal Service internal controls and processes are not followed.
14
   The disbursements at risk amounts for FYs 2010-2012 represent total costs paid to these contractors during these
years. Postal Service advertising officials stated that the majority of these costs represent 'pass-throughs' whereby
the contractor procures certain media or other services on behalf of Postal Service and passes payment directly
through to the service provider (such as to the television studio that aired the Postal Service’s commercial). These
pass-through payments do not include any mark-up from the contractor such as profit, general and administrative, or
overhead. We included all of the costs as disbursements at risk because the contractor managed the relationship with
the service provider and received a percentage of the pass-through fees as payment for negotiating the rates and
services.

                                                         17
Advertising Program                                       MS-AR-13-002



                      Appendix C: Management’s Comments




                                     18
Advertising Program        MS-AR-13-002




                      19
Advertising Program        MS-AR-13-002




                      20
Advertising Program        MS-AR-13-002




                      21
